APPLICATION AND
SOLICITATION
DISCLOSURE
VISA PLATINUM PREFERRED/ABNB BLACK

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Platinum Preferred

6.99% to 16.50%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
ABNB Black

9.50% to 12.49%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
APR for Balance Transfers

Visa Platinum Preferred
0%
Introductory APR until December 31, 2021 .
After that, your APR will be 6.99% to 16.50%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
ABNB Black
0%
Introductory APR until December 31, 2021 .

APR for Cash Advances

After that, your APR will be 9.50% to 12.49%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Preferred
6.99% to 16.50%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
ABNB Black
9.50% to 12.49%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
- Annual Fee

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

None

SEE NEXT PAGE for more important information about your account.
ABNB Federal Credit Union
04502957-MXC10-C-2-111820 (MXC101-E)

Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee - Visa Platinum
Preferred
- Foreign Transaction Fee - ABNB Black
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

3.00% of the amount of each balance transfer
None
1.00% of each multiple currency transaction in U.S. dollars
0.80% of each single currency transaction in U.S. dollars
None
Up to $29.00
Up to $29.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR:
The Introductory APR for balance transfers will apply to transactions posted to your account from January 1st, 2021
until June 30th, 2021
. Any existing balances on ABNB Federal Credit Union loan or credit card accounts are not
eligible for the Introductory APR for balance transfers.
Loss of Introductory APR:
We may end your Introductory APR for balance transfers and apply the prevailing non-introductory APR if you are 60 days
late in making a payment.
Effective Date:
The information about the costs of the card described in this application is accurate as of: January 1st, 2021
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa Platinum Preferred and ABNB Black are secured credit cards. Credit extended
under this credit card account is secured by various personal property and money including, but not limited to:
(a) any goods you purchase with this account, (b) any shares you specifically pledge as collateral for this
account on a separate Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit
Union excluding shares in an Individual Retirement Account or in any other account that would lose special tax
treatment under state or federal law, and (d) collateral securing other loans you have with the Credit Union
excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that during any periods when
you are a covered borrower under the Military Lending Act your credit card will be secured by any specific
Pledge of Shares you grant us but will not be secured by all shares you have in any individual or joint account
with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card
account when you are not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$29.00 or the amount of the required minimum payment, whichever is less, if you are three or more days late in making a
payment.
Balance Transfer Fee (Finance Charge):
3.00% of each balance transfer. However, this fee is waived on any balance transfer transactions posted after the
Promotional Period stated above.
Returned Payment Fee:
$29.00 or the amount of the required minimum payment, whichever is less.
Card Replacement Fee:
$10.00.
Rush Fee:
$25.00.
Statement Copy Fee:
$5.00.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

ABNB Federal Credit Union

04502957-MXC10-C-2-111820 (MXC101-E)

